Supreme Court, U.S.
FILED

OCT 3 G 2020

K

M

OFFICE OF THE CLERK

Supreme Court of the United States
Howard Griffith,
Pro Se
Defendant/Petitioner,

VS

New York State,
Represented by William J. Fitzpatrick
District Attorney of the State of New York/County of Onondaga
Plaintiffs/Respondent,

Petition for Writ of Certiorari

RECEIVED
NOV - 5 2020
TOfM?CTQHUE^

Howard Griffith, pro se
2903 James Street, # 1R
Syracuse, NY 13206 ____
3lf7HBQHlV£D

ORIGINAL

NOV I 8 2020

i
QUESTIONS PRESENTED
Doe v Pataki, 3 F.Supp.2d 456 (SD NY 1998) provides that the People carry the
burden of proving the facts to support the recommended registration classification
level for a defendant's initial sex offender registration, pursuant to NY Correction
Law Section 168-n (NY Correction Law Article 168: Sex Offender Registration
Act [SORA]) to provide that the due process rights of a defendant includes
prehearing discovery. Therefore, defense counsel is entitled by statute to
prehearing access to the documents reviewed by the Board of Examiners of Sex
Offenders (NY Correction Law Section 168-1) prior to a hearing where the
Defendant is prosecuted to determine his initial SORA registration level.

Can the documents that a defense counsel is entitled to have access to "prior" to an
initial Sex Offender Registry hearing also refer to the documents that a defense
counsel is entitled to have access to at the time of a sex offender's conviction?

NY Correction Law Section 168-o(2), SORA modification, requires the Defendant
to bear the burden of proving the facts to support the requested modification by
clear and convincing evidence.

Can the [p]rocess of using severability to satisfy the cause to disregard the error of
taking an appeal with an omission from a SORA modification proceeding to obtain
merits that Defendant was deceived to admit to the instant offense at the time of
conviction to apply it to questions with regard to not admitting to the sex offense as
a penalty for SORA registration [ ] be used to satisfy cause and prejudice to
support a procedurally defaulted claim for coram nobis relief?

ii

LIST OF PARTIES
Defendant/Petitioner* Howard Griffith
Plaintiffs/Respondents, People of the State of New York/County of Onondaga

iii

TABLE OF CONTENTS
Questions Presented

1

List of Parties

in

Opinions Below

1-3

Jurisdiction

3-6

Constitutional and Statutory Provisions Involved

6-9
9-10

Concise Statement

10-22

Reasons for Granting Petition

I) NY Correction Law Article 168, Sex Offender Registration Act (SORA):
10-20
a) NY Correction Law Section 168-o(2), SORA Modification

10

b) NY Correction Law Section 168-n(3), Judicial Determination

10

c) Ambiguity

10-11

d) The Common Law

11-15

e) The Rule of Procedural Default

15-17

f) Prejudice

18-20

g) NY Correction Law Section 168-w, Severability

20-22

II) Doe v Pataki, 3 F.Supp.2d 456 (SD NY 1998)

20-22
22

Conclusion

iv

INDEX TO APPENDIX
• State of New York/Onondaga County Court Order: July 21,
la

2017

• People v Griffith, 166 N.Y. A.D.3d 1518 (4th Dept 2018): November 9,
2a

2018
• People v Griffith, 32 N.Y.3d 1196 (2019), appeal dismissed: Feb 21,

5a

2019

• People v Gifflith, 33 NY3d 1047 (2019) reconsideration denied June 11,
6a

2019

• Howard Griffth v New York, 140 S Ct 140 (2019), cert denied: Oct. 15,
7a

2019
• Letter/Decision/Order of the Onondaga County Court, SORA relief

8a

denied: October 25,2019
• Supreme Court of the State of New York, Appellate Division/Fourth

Department, Order to Show Cause denied for Motion for the Court to
Waive Certification of the Record pursuant to 22 NYCRR 1250.7(g):
9a

February 03, 2020

• Letter/Decision/Order of the Onondaga County Court: Motion for the
Court to Settle the Record, 22 NYCRR 1250.7(g), Dismissed: Feb. 21,
10a

2020

v

• Pleading from the Clerk of the Supreme Court of the State of New
York, Appellate Division/Fourth Department: May 6,
11a

2020

• Supreme Court of the State of New York, Appellate Division/Fourth
Department, Order to Show Cause denied for Motion for
Reconsideration for Court to Waive Certification of the Record: May
12a

27, 2020

• New York State Court of Appeals: Motion No. 2020-552, Motion
13a

Dismissed: October 22,2020

TABLE OF AUTHORITIES
Cases
• Doe v Pataki, 3 F.Supp.2d 456 (SD NY 1998)

i, 13-14, 20-22

• Engle v Isaac, 456 U.S. 107

20

• Murray v Carrier, 477 U.S. 478 (1986)

20

•

11

North Carolina v Alford, 400 U.S. 25 (1970)

• People v Ayala, 72 A.D.3d 1577,1578 (4th Dept 2010) lv denied 15 N.Y.3d
14-15

816 (2010)
• People v Caccavale, 305 A.D.2d 695 (2d Dept 2003)
• People v Charles, 162 A.D.3d 125 (2d Dept 2018)
vi

1,12
15-16

12

• People v Clavette, 96 A.D.3d 1178 (3d Dept 2012)
• People v Griffith, 166 N.Y. A.D.3d 1518 (4th Dept 2018)

1,5,11,12,

13,14,18,19,20-21
• People v Hernandez, 93 NY2d 261 (1999)

13, 20, 21

• People v Holmes, 111 A.D.3d 686 (2d Dept 2013)

10-11,17

• People v Lashway, 25 NY3d 478 (2015)

13-14, 20-21

• People v Nieves, 2 N.Y.3d 310 (2004)

12,13

• People v Smith, 15 N.Y.3d 669 (2010)

12

United States Constitution
4th Amendment Right of the United States Constitution

6, 8,17, 21

5th Amendment Right of the United States Constitution

6, 8,17, 21

6th Amendment Right of the United States Constitution

6, 8,17, 21

9th Amendment Right of the United States Constitution

5, 6, 9

10th Amendment Right of the United States Constitution

4, 5, 6, 9

14th Amendment Right of the United States Constitution

6, 8,17, 21

NY Correction Law Article 168, Sex Offender Registration Act (SORA)
1)

NY Correction Law 168-n, Judicial Determination
10,11,12,13,15,17-18, 20-20
vii

■i, 7,

2)

NY Correction Law 168-0, Petition for Relief or Modification of Sex
i, ii, 1, 6,10,11,14,15,16,17-18,19, 22

Offender Registry
3)

NY Correction Law Section 168-d(l), Certification as a Sex
7,13, 21

Offender
4)

NY Correction Law 168-w Severability

ii, 18-20, 22

NY Criminal Statutes
1) NY Criminal Procedure Law Section 450.10(1), Direct Appeal from
7-8, 9,12,13,14,15,18,19, 21

Judgment of Conviction
2) NY Rape 1st, NY Penal Law 130.35(1)

9

NY Civil Practice Law and Rules (CPLR)
1) NY CPLR Section 5701: Rights to Appeal

15

2) NY CPLR Section 2001: Mistakes, Omissions, Defects, and
15

Irregularities

New York State Executive Orders
1) Section 29-a of article 2-b of the Executive Law, Suspensions in the
3

State of Disaster or Emergency

viii

2) Executive Order 202.8, Tolling of Procedures Within Judicial Branch:
3-4

3) Executive Order 202.67, Extension of Suspensions

3-4

Rules
Part 1250.7(g) of Title 22 of the New York Codes of Rules and Regulations
(NYCRR) Stipulation, Settlement of the Record, Waiver of Certification....... 2

ix

OPINIONS BELOW
1(a) People v Griffith, July 21, 2017: Decision/Order: Defendant's Requested Sex
Offender Modification Petition denied on the ground that Defendantfails to
establish sufficient pertinent facts supporting the requested modification by clear
and convincing evidence; (Decision/Order not reported); 2(a) People v Griffith,
166 A.D.3d 1518 (4th Dept 2018), Order and Memorandum: Order reversed,
matter remitted, reinstated, and remanded on the ground Defendant was denied
effective assistance of counsel', matter to be held in abeyance of the interim citing
People v Caccavale, 305 A.D.2d 695, 695 (2dDept 2003): November 09, 2018;
5(a) People v Griffith, 32 NY3d 1196 (2019), Decision/Order: appeal dismissed
upon the ground that the Order sought to be appealedfrom does not finally
determine the proceeding within the meaning of the Constitution: February 21,
2019; 6(a) People v Gifflith, 33 NY3d 1047 (2019), Decision: reconsideration
denied: June 11, 2019; 7(a) Howard Griffith v New York, 140 S Ct 140 (2019),
Decision: cert denied: October 15, 2019; 8(a) Letter/Decision/Order of the
Onondaga County Court on the matter remitted to Onondaga County Court, relief
was denied, determining the matter to have been final on September 13, 2019, (a
date when the matter was under the jurisdiction of the United States Supreme
Court), via a pleading: October 25, 2019 (Letter/Decision/Order is not reported);
9(a) Supreme Court of the State of New York, Appellate Division/Fourth
1

Department, Order to Show Cause denied for Motion for the Court to Waive
Certification of the Record pursuant to 22 NYCRR 1250.7(g), Motion taken on
January 31, 2020, on account to provide the objection that the Notices the
Onondaga County provided dated January 9, 2020, to commence the procedures to
settle the record on account of Defendant's January 02, 2020 motion were clearly
evident to have been provided to develop the process to construe an ex parte
order: February 03, 2020: (Decision is not reported); 10(a) Letter/Decision/Order
of the Onondaga County Court: Motion for the Court to Settle the Record pursuant
to 22 NYCRR 1250.7(g) dated January 02, 2020, dismissed on the ground that the
Onondaga County Court determined Defendant did not have the right nor could
have been granted the privilege to appeal the letter/decision/order dated October
25, 2019: February 21, 2020 (Letter/Decision/Order not reported); 11(a) Pleading
from the Clerk of the Supreme Court of the State of New York, Appellate
Division/Fourth Department declaring: "The Court received your motions dated
March 10, 2020 and March 18, 2020, which are being returned without
consideration. Your appeal was decided by this Court on November 9, 2018.
Therefore, there is nothing pending before this Court." May 6, 2020. (Pleading not
reported) 12(a) Supreme Court of the State of New York, Appellate
Division/Fourth Department, Order to Show Cause denied for Motion for
Reconsideration for Court to Waive Certification of the Record: Motion taken to
2

obtain a final determination on account of the objection preserved with the initial
Motion for the Court to Waive Certification of the Record: May 27, 2020
(Decision not reported), 13(a) New York State Court of Appeals: Motion No.
2020-552, Decision: "ORDERED, that the motion is dismissed upon the ground
that the order sought to be appealedfrom does not finally determine the
proceeding within the meaning of the Constitution.October 22, 2020 (Order not
yet reported)

JURISDICTION
Section 29-a of article 2-b of the Executive Law, in New York State provides
that "[sjubject to the state constitution, the federal constitution andfederal statutes
and regulations, the governor may by executive order temporarily suspend any
statute, local law, ordinance, or orders, rules or regulations, or parts thereof, of
any agency during a state disaster emergency [which includes epidemics], if
compliance with such provisions would prevent, hinder, or delay action necessary
to cope with the disaster or if necessary to assist or aid in coping with such
disaster. ” (emphasis added).
Executive Order 202.67 went into effect on October 5, 2020 providing: "The
suspension in Executive Order 202.8, as modified and extended in subsequent
Executive Orders, that tolled any specific time limit for the commencement, filing,
3

or service of any legal action, notice, motion, or other process or proceeding as
prescribed by the procedural laws of the state, including but not limited to the
criminal procedure law, the family court act, the civil practice law and rules, the
court of claims act, the surrogate’s court procedure act, and the uniform court
acts, or by any statute, local law, ordinance, order, rule, or regulation, or part
thereof, is hereby continued, as modified by prior executive orders, provided
however, for any civil case, such suspension is only effective until November 3,
2020. " Executive Order 202.67 has continued to extend suspensions of judicial
proceedings in the New York State Judicial System as modified by prior executive
orders as provided with Executive Order 202.8. These suspensions have been
modified and extended, continuously, since March 7, 2020. Governor Cuomo has
the authorization to execute these procedures with regard to the 10th Amendment
of the United States Constitution as the 10th Amendment states: "The powers not
delegated to the United States by the Constitution, nor prohibited by it to the
States, are reserved to the States respectively, or to the people."
With regard to Mo. No. 2020-552, Defendant had taken the action to the New
York State Court of Appeals to obtain an Order to succeed with the process to take
this action in this Court. With the due deliberation of Chief Judge Janet DiFiore
decided on October 22, 2020, it was: "ORDERED, that the motion is dismissed
upon the ground that the order sought to be appealedfrom does not finally
4

determine the proceeding within the meaning of the Constitution. " The merits
provided with Executive Orders 202.8 and 202.67 provide that this just as well
may "mean" this contest cannot be contested in the New York State Court of
Appeals or else this would just be provided as interference "within" the procedures
Governor Cuomo provides for tolling proceedings of the Judicial Branch of the
Government of New York State as described "within" these executive orders as the
10th Amendment of the United States Constitution authorizes Governor Cuomo to
execute this. Nevertheless, the 9th Amendment of the United States Constitution
provides, "The enumeration in the Constitution, of certain rights, shall not be
construed to deny or disparage others retained by the people." Defendant's intent
was to exhaust his remedies.
Since the final determination was made by the Onondaga County Court, on
February 21, 2020, after the matter was remitted to that court from the Order/
Memorandum in "People v Griffith, 166 A.D.3d 1518 (4th Dept. 2018)" several
decisions have been made in courts in New York State which have thwarted the
procedure to execute this process to exhaust remedies as it is becoming more and
more difficult to interpret why these decisions have been made in these courts.
These executive orders provide the most evidence and complete substance why the
decisions have been made in these courts which have thwarted the process
Defendant attempts to succeed with, exhausting his remedies. These modifications
5

and extensions of these suspensions are developing substance too quickly to reach
specific interpretations of how they may affect why a court may have made any of
these decisions. With the authority of the New York State Government to enact
Executive Orders 202.8 and 202.67, via the 10th Amendment of the United States
Constitution, Defendant's 4th, 5th, 6th, 9th and 14th Amendment Rights of the
Constitution need to provide it is determined that Defendant has exhausted his
remedies as due process provides these executive orders should just as well be
provided for stipulation. Further cause is supported these extensions and
modifications may still be extended more to even more broadly develop substance
to make it even more difficult to interpret why previous decisions have been made.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
NY Correction Law Article 168 (Article 6C of Correction Law, Sex Offender
Registration Act [SORA])

NY Correction Law Section 168-o(2), SORA Modification requires a defendant
to bear the burden of proving the facts supporting the requested modification by
clear and convincing evidence.

6

NY Correction Law Section 168-n(3), Judicial Determination provides
limitations, that facts previously proven at trial or elicited at the time of entry of a
plea of guilty shall be deemed established by clear and convincing evidence and
shall not be relitigated during SORA hearings.

NY Correction Law Section 168-d(l): Certification as a Sex Offender The
court shall certify that the person is a sex offender and shall include the
certification in the order of commitment, if any, and judgment of conviction.

NY Correction Law Section 168-w, Severability provides that if a court of
competent jurisdiction adjudges any section of the article (NY Correction Law
Article 168, Sex Offender Registration Act [SORA]) or part thereof to be invalid,
such judgment shall not affect, impair or invalidate the remainder or any other
section or part thereof.

NY Criminal Procedure Law (CPL) 450.10(1) (Direct Appeal) An appeal to an
intermediate appellate court may be taken as of right by the defendant from the
following judgment, sentence and order of a criminal court: (1) A judgment other
than one including a sentence of death, unless the appeal is based solely upon the
ground that a sentence was harsh or excessive when such sentence was predicated
7

upon entry of a plea of guilty and the sentence imposed did not exceed that which
was agreed to by the defendant as a condition of the plea and set forth on the
record or filed with the court as required by subdivision five of section 220.50 or
subdivision four of section 340.20.

4th, 5th, 6th, and 14th Amendments of the United States Constitution
(4th) Defendant's right to due process was violated when he was sentenced,
convicted and indicted. (5th) Nevertheless, Defendant still needed to be provided
the due process right to contest the injustice of the violation of those rights, (6th)
via a criminal proceeding, as he was, additionally, not to have been subject to
ineffective assistance of counsel as he was, initially, when these rights were
violated when he was sentenced, convicted and indicted (14th) as it was New York
State who has violated these due process rights when he was sentenced, convicted
and indicted whom has failed to restore Defendant's liberty from being subject to
these violations. Nevertheless, for these reasons, it is to be the Judicial Branch of
the United States Government who will grant the due process to provide these
rights will no longer be violated as Defendant will be able to defend himself
against this injustice to provide these violations of his constitutional rights are no
longer to be subject to his life as his liberty is to be restored.

8

9th and 10th Amendments of the United States Constitution
With New York State using the 10th Amendment Right of the United States
Constitution: "The powers not delegated to the United States by the Constitution,
nor prohibited by it to the States, are reserved to the States respectively, or to the
people," to restrict Defendant's access to the Judicial Branch of Government in
New York State via Executive Orders with regard to the COVID-19 pandemic,
Defendant's 9th Amendment Constitutional Right: "The enumeration in the
Constitution, of certain rights, shall not be construed to deny or disparage others
retained by the people," may just as well restore it. Nevertheless, Defendant's
access to the Judicial Branch of Government will not be accessed to the Judicial
Branch of New York State. However, Defendant's access to the Judicial Branch of
Government will be provided by the United States as is to be provided for
Defendant's 4th, 5 th, 6th, and 14th Amendment Rights of the Constitution of the
United States.

CONCISE STATEMENT
It was with a direct appeal that determined Defendant's conviction for Rape 1 st,
Penal Law 130.35(1) is invalid and illegal because he received ineffective
assistance of counsel at the time of his conviction as he was deceived and coerced
to admit to the instant offense. Therefore, the Judgment/Decision/Order of
9

Defendant's sentence, conviction, and indictment needs to be annulled, vacated and
set aside.

REASONS FOR GRANTING RELIEF
I) NY Correction Law Article 168, Sex Offender Registration Act (SORA):
a) NY Correction Law Section I68-o(2), SORA Modification requires a
defendant to bear the burden of proving the facts supporting the requested
modification by clear and convincing evidence.

b) NY Correction Law Section 168-n(3), Judicial Determination provides
limitations, that facts previously proven at trial or elicited at the time of entry of a
plea of guilty shall be deemed established by clear and convincing evidence and
shall not be relitigated during SORA hearings.

c) Ambiguity provided that with the conditions of Defendant's plea bargain,
pursuant to NY Correction Law Section 168-n(3): Facts elicited at the entry of
Defendant's plea of guilty, as the evidence is deemed clearly and convincingly
established, proves his conviction is invalid, involuntary, and illegal and has not
yet been litigated as he should be allowed to litigate this. (see People v Holmes,
111 A.D.3d 686, 687, 688 [2d Dept 2013]: The Court determined what the facts
10

were that were elicited at the entry of Holmes plea of guilty during the allocution
statement while deciding he could litigate the proffered evidence.)

d) The Common Law provided the determination Defendant's SORA
modification proceeding could construe a process to determine that Defendant's
conviction was illegal while providing merits to determine Defendant was
deceived and coerced to admit to the instant offense to provide this for his cause to
have his burden borne to prove his facts to support his requested modification for
his SORA registration as he contested that he should not have been penalized for
not admitting to the instant offense for his SORA registration.
1. With regard to "People v Holmes", the merit can be provided that Defendant
could contest what the county court provided: [Defendant] "pled guilty... by
Alford." (see North Carolina v Alford, 400 U.S. 25 [1970] "An Alford plea is
not a guilty plea as a defendant agrees to take the conviction without
admitting to the instant offense to avoid the possibilities of being proven
guilty after trial.") However, it needed to be provided that Defendant could
contest what he stated during his allocution to complete this process as he
stated during his allocution: "Even though I am pleading guilty, I'm not
admitting to doing this crime." "People v Holmes" and NY Correction Law
Section 168-n(3) provide this cannot be contested pursuant to the statutory
11

law provided by NY Correction Law Article 168, alone. Regarding the
allocution, NY Correction Law Section 168-n provided that the county
court's determinations were made under the proper evidentiary standard
(People v Griffith, id. at 1520: "Contrary to defendant's contentions in his
pro se supplemental brief, the court did not err in refusing to allow him to
challenge his plea or other aspects of his underlying conviction. It is well
settled that a SORA proceeding may not be used to challenge the underlying
conviction," citing People v Clavette, 96 A.D.3d 1178, 1179 [3d Dept 2012],
lv denied 20 N.Y.3d 851 [2012]) Nevertheless, "As relevant here, Criminal
Procedure Law § 450.10 'authorizes a defendant to appeal from a judgment
in a criminal case, which brings up for review many of the orders and
rulings that precede or are part of it' (People v Nieves, 2 N.Y.3d 310, 314
[2004]). A judgment is 'comprised of a conviction and the sentence imposed
thereon and is completed by imposition and entry of the sentence' (CPL 1.20
[15])," id. People v Clavette, citing People v Smith, 15 N.Y.3d 669, 673
(2010)
2. The Onondaga County Court failed to provide Defendant with new counsel
prior to continuing with the hearing, after Defendant declared he was not
guilty and claimed his counsel was coercing him under administration of
oath before his conviction. (People v Griffith, id. at 1519 citing People v
12

Caccavale, 305 A.D.2d 695, 695 [2d Dept 2003]), and because of this, due
process provided his adverse "defense" counsel should not have been
entitled to any prehearing documents during the time of judgment which
called into question statements on the record with regard to whether
Defendant had admitted to the instant offense or not at the time of his
conviction as "defense" counsel should not have had authority to provide
this for Defendant's certification as a sex offender, (id. People v Nieves,
citing People v Hernandez, 93 NY2d 261, 267-268 [1999]: "Certification as
a sex offender is an integral part of the sentence relating back to or
becoming incorporated into the antecedentjudgment of conviction...
appealable and reviewable with the judgment of conviction pursuant to NY
CPL 450.10[lj." [see NY Correction Law Section 168-d(l): "The court shall
certify that the person is a sex offender and shall include the certification in
the order of commitment, if any, andjudgment of conviction. "]) which
should have later provided substance to affect his initial registration as a sex
offender pursuant to NY Correction Law 168-n. People v Griffith, 166
A.D.3d at 1519 citing People v Lashway, 25 NY3d 478,483 [2015]:"^7?
initial risk level determination, where the People carry the burden, the due
process rights of a petitioner include, among other things, prehearing
discovery (see Doe v Pataki, 3 F.Supp.2d 456 [SD NY 1998]). Therefore,
13

defense counsel is entitled by statute to prehearing access to the documents
reviewed by the [Board] prior to his or her initial SORA determination.
However, initial risk level assessments and reclassification petitions by
statute are different." [emphasis added1])
3. With this, his adverse "defense" counsel also advised him he no longer had
his right to appeal this, pursuant to NY Criminal Procedure Law Section
450.10(1), at the closing of sentencing. This was Defendant's cause for
failing to properly appeal the underlying conviction pursuant to NY
Criminal Procedure Law Section 450.10(1). "Thus, defense counsel's advice
was incorrect as well as adverse to Defendant's position." {see People v
Griffith, id. at 1520) "In addition, a defendant may commence a SORA
modification proceeding no more than once annually," was the prejudice he
was subject to for failing to properly follow CPL 450.10(1). {see People v
Griffith, id. at 1519-1520) However, this does not invalidate, as to have been
expected, "His assigned counsel, however... advised defendant to withdraw
the petition so that defendant would not needlessly delay his right to file a
new modification petition in two years," ("People v Griffith," id. at 1519), as
two years does not fall within the range of one year. Therefore, it is not
excessive. (People v Griffith, id. at 1520 citing People v Ayala, 72 A.D.3d

[Board] of Examiners of Sex Offenders, NY Correction Law Section 168-1

14

1577, 1578 [4th Dept 2010]: "We conclude that he was provided effective
assistance of counsel at the SORA hearing," Iv denied 15 N.Y.3d 816
[2010])

e) The Rule of Procedural Default provides the Supreme Court of the State of
New York, Appellate Division/Fourth Department agreed that Defendant was
denied effective assistance of counsel at the time of his conviction to reverse the
order, reinstate the petition and remit the matter to the County Court for a new
hearing on the Petition upon his requested modification to not have been penalized
for not admitting to the instant offense upon the merits of questions with regard to
his admission to the instant offense. People v Griffith, id. at 1519:
"As a preliminary matter, we note that defendant's pro se notice of
appeal states that he is appealing pursuant to CPL 450.10 (1) 'as it applies'
to Correction Law § 168-n. CPL 450.10 (1), however, does not grant
defendant the right to appeal from an order denying his petition for a
downward modification of his risk level; instead, that right is conferred by
CPLR 5701 (see generally People v Charles, 162 A.D.3d 125, 126, 137-140
[2dDept 2018], Iv denied 32 N.Y.3d904 [2018]). Nevertheless, we deem the
appeal to have been taken pursuant to the proper statute, and we therefore
reach the merits of the issues raised on appeal (see CPLR 2001).
15

"We agree with defendant that he was denied effective assistance of
counsel, and we therefore reverse the order, reinstate the petition, and remit
the matter to County Court for a new hearing on the petition. it 2
Therefore, the cause was satisfied Defendant had succeeded with achieving the
determination that he was provided ineffective assistance of counsel at the time of
his conviction. He achieved this, via an appeal from a SORA modification
proceeding, to determine his conviction was invalid, by improperly taking his
appeal from the decision of the Onondaga County Court. This process was satisfied
as due process provided that the Supreme Court of the State of New York,
Appellate Division/Fourth Department, would agree with his cause for providing
an omission to have his burden borne to prove his facts to support his requested
modification for his SORA registration, as People v Charles, 162 A.D.3d at 140,
provides the Intermediate Appellate Courts in New York State are to decide if the
burden deemed to have been borne has provided, with merit, that the facts have
been proven by clear and convincing evidence and can be provided for a
defendant's requested SORA modification. With this, Defendant supported this
process could be construed to develop a defaulted claim to support his conviction
could be dismissed through this process pursuant to the rule of procedural default.

2 People v Charles, 162 A.D.3d at 125, 126: "It was of concern that defendant... had refused to
accept responsibility for his sexual offenses."
16

With this, the Supreme Court of the State of New York, Appellate Division/Fourth
Department was satisfied with the merits provided to interpret ineffective
assistance of defense counsel. Defendant was able to relate this to his SORA
modification proceeding because merit was provided that there were questions
with regard as to whether he had admitted to the instant offense or not because he
was penalized for not taking responsibility for his instant offense, as the merits
provided these procedures could be used to bring these questions to the Supreme
Court of the State of New York, Appellate Division/Fourth Department.

f) Prejudice is provided with regard to Defendant's right to commence a SORA
modification proceeding at least once annually pursuant to NY Correction Law
Section 168-o(2), because the only way for Defendant to be able to receive
modification from being penalized on his SORA registration for not admitting to
the instant offense would be to agree to admit to the instant offense to provide
merit that Defendant has no longer been deemed to have been deceived or coerced
into admitting to the instant offense as this would null the evidence on the record
as this is a violation of Defendant's 4th, 5th, 6th, and 14th Amendment Rights of
the Constitution of the United States. Until then, New York State would rely on
Defendant's allocution to support what was deemed as his failure to admit to the
instant offense, via the process of SORA registration, because pursuant to NY
17

Correction Law Section 168-n(3): "Facts previously proven at trial or elicited at
the time of entry of a plea ofguilty shall be deemed established by clear and
convincing evidence and shall not be relitigated." ("People v Holmes," supra)
Defendant should not have been penalized for this in any way, whether it was with
regard to his SORA registration, his sentence as a sex offender, his certification as
a sex offender, or his conviction as a sex offender.

g) NY Correction Law Section 168-w, Severability provides that if a court of
competent jurisdiction adjudges any section of the article (NY Correction Law
Article 168, Sex Offender Registration Act [SORA]) or part thereof to be invalid,
such judgment shall not affect, impair or invalidate the remainder or any other
section or part thereof. Because of this, due process provided prejudice would
result after the Supreme Court of the State of New York, Appellate
Division/Fourth Department provided the adjudication determining Defendant's
conviction was invalid after providing the determination with a memorandum from
his action that was considered to have been properly taken with a direct appeal,
even though: "It is well settled that a SORA proceeding may not be used to
challenge the underlying conviction." (People v Griffith, id. at 1520) Nevertheless,
with the cause for improperly addressing this action with an omission with
Defendant's appeal the adjudication was able to provide the memorandum to
18

support Defendant's conviction is an error of the most fundamental character. With
the Order provided with "People v Griffith, id." reversing the Onondaga County
Court's decision which initially denied SORA modification, Severability, pursuant
to NY Correction Law Section 168-w, established precedent for a process of
remedies which would satisfy repeated errors of law based on the error of the most
fundamental character, until the remedies would be exhausted to establish
precedent to support a procedurally defaulted claim to proceed with a Petition for
Writ of Certiorari to the United States Supreme Court. This can be satisfied
because Defendant's cause for failing to properly appeal his underlying conviction,
pursuant to NY CPL 450.10(1), was because his counsel advised him that he no
longer had a right to appeal his ineffectiveness at the closing of the judgment, and
with Defendant only being able to commence a SORA modification proceeding no
more than once annually, this is prejudicially provided as a consequence for failing
to properly appeal his underlying conviction pursuant to NY CPL 450.10(1).
Nevertheless, due process provided a cause that Defendant was able to achieve an
adjudication determining his conviction was illegal by improperly taking his
appeal, as an omission, from a SORA modification proceeding. With this, the
necessity was also satisfied by Defendant, with regard to it being necessary to
present with the cause that it would be determined that severability, Correction
Law 168-w, would provide the prejudice that with the adjudication determining
19

Defendant's conviction was an error of the most fundamental character, a
procedure would result in remedies being provided, establishing precedents of
continued errors of law. Due process would satisfy the procedure, with regard to
the process that exhausts these remedies, that a precedent would be established to
present this as a procedurally defaulted claim to the United States Supreme Court
to be provided with a Petition for Writ of Certiorari to provide the cause for this

1

Court to disregard the procedural default to provide coram nobis relief. With
regard to the evidence on the record, to support this contest as a procedurally
defaulted claim, Defendant's statute of limitations to litigate these claims rests on
the finality of the judgment (Murray v Carrier, 477 U.S. 478, 487, citing Engle v
Isaac, 456 U.S. 107, id. at 129) as certification as a sex offender became subject to
this action, (id. People v Hernandez)

II) Doe v Pataki. 3 F.Supp.2d 456 (SD NY 1998)
As presented in sub-part (d) of part (I), People v Griffith, 166 A.D.3d 1518 (4th
Dept. 2018) determines that the required due process rights that were required to
be conducted to prosecute this case are substantively, fatally flawed as the
requirements are with regard to the due process rights provided with Doe v Pataki,
3 F.Supp.2d 456 (SD NY 1998). People v Griffith, id. at 1519-1520: (see People v
Lashway, 25 NY3d 478, 483 [2015]: "An initial risk level determination, where the
20

People carry the burden, the due process rights of a petitioner include, among
other things, prehearing discovery [see Doe v Pataki, 3 F.Supp.2d 456 (SD NY
1998)]. Therefore, defense counsel is entitled by statute to prehearing access to the
documents reviewed by the [Board] prior to his or her initial SORA determination.
However, initial risk level assessments and reclassification petitions by statute are
different." [emphasis added3]) The contest was able to provide the ineffective
defense counsel should have never been entitled to prehearing access to the
documents which were to have been reviewed by the [Board] of Examiners of Sex
Offenders prior to Defendant's conviction, "[by statute]", as it applies to
Defendant's certification as a sex offender (see People v Hernandez, 93 NY2d 261,
267-268 [1999]: "Certification as a sex offender is an integral part of the sentence
relating back to or becoming incorporated into the antecedent judgment of
conviction... [see NY Correction Law Section 168-d(l): 'The court shall certify
that the person is a sex offender and shall include the certification in the order of
commitment, if any, andjudgment of conviction.']"), "[prior to Defendant's initial
SORA determination]". Therefore, "People v Griffith, 166 A.D.3d 1518 (4th Dept.
2018)" provides Defendant's 4th, 5th, 6th, and 14th Amendment Rights of the
Constitution of the United States have been violated providing Defendant's SORA
registration could have in no way ever been prosecuted, not satisfying the federal

3 [Board] of Examiners of Sex Offenders, NY Correction Law Section 168-1

21

due process requirements that are to be provided as they apply to "Doe v Pataki,
id." and it can now be determined "People v Griffith, 2001-0883-1" is an error of
the most fundamental character to provide Defendant's Judgment/Decision/Order
for his sentence, conviction and indictment needs to be annulled, vacated and set
aside to provide coram nobis relief.

CONCLUSION
With ambiguity, Defendant has construed his burden, to obtain his adjudication, to
support his requested sex offender modification to annul, vacate, and set aside his
underlying conviction. The adjudication determined his conviction was illegal and
invalid by clear and convincing evidence, as he presented that due process
provided that the adjudication could be made because severability would satisfy
the process that exhausting his remedies would continue to establish precedents to
make him a victim of an error of the most fundamental character to establish
precedent for coram nobis relief upon the exhaustion of his remedies. Developed
from his SORA modification proceeding, this now provides that the precedent has
been established for substantive due process to provide Defendant's procedural
default to be disregarded to provide coram nobis relief.
Howard Griffith, pro se
2903 James Street, # 1R
Syracuse, NY 13206
(315) 741-7420

Respectfully submitted,
Dated:
Howard Griffith
22

